           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       FIELD OFFICE USE OF THE
            SS-5 ASSISTANT

     July 2007    A-04-07-17026




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      July 2, 2007                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Field Office Use of the SS-5 Assistant (A-04-07-17026)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration’s (SSA) field
           office (FO) staff complied with enumeration policies and procedures when processing
           Social Security number (SSN) applications through the SS-5 Assistant.

           BACKGROUND
           SSA requires that applicants for an original or replacement SSN card complete a
           Form SS-5, Application for a Social Security Card. The SS-5 Assistant, a Microsoft
           Access-based application, guides FO personnel in processing SSN applications by
           providing structured interview questions and requiring certain data to complete the
           application process. Overall, the SS-5 Assistant is intended to increase control over the
           SSN application process, improve the quality of data used to assign an SSN and
           enable management to better control this workload.

           Staff from SSA’s New York Regional Office Center for Automation developed the
           SS-5 Assistant program. At the time of our audit, a team consisting of software
           programmers, computer specialists and computer program analysts supported the
           SS-5 Assistant application. The SS-5 Assistant remains dynamic. Based on user
           input, the SS-5 Assistant is frequently enhanced to improve its efficiency and accuracy.
           Since its initial implementation, the SS-5 Assistant has been modified and upgraded
           numerous times.

           The SS-5 Assistant works with SSA’s Modernized Enumeration System (MES) and, in
           effect, implements many of SSA’s enumeration policies and procedures. SSA
           mandated FO use of the SS-5 Assistant for most SSN applications on March 1, 2005.
           As of April 2007, SSA reported that its FOs had used the SS-5 Assistant to process
Page 2 – The Commissioner


about 98 percent of SSN transactions. 1 From January 1, through March 31, 2006, SSA
FO staff processed about 3.34 million original or replacement SSN card applications
using the SS-5 Assistant. These applications resulted in SSA issuing about 2.96 million
replacement cards and assigning some 382,000 original SSNs.

SSA is in the Planning and Analysis phase of developing the Social Security Number
Application Process (SSNAP), an automated SSN assignment system that will replace
the SS-5 Assistant and MES. The Agency is determining the user requirements for
SSNAP and plans to implement this system within the next 2 years. Accordingly, any
recommendations we make in this report will address considerations we believe should
be given to the new system design.

SCOPE AND METHODOLOGY
We reviewed a random sample of 275 SSN applications processed through the
SS-5 Assistant that resulted in the assignment of an original SSN or the issuance of a
replacement Social Security card. We selected our sample from the 3.3 million SSN
cards (original and replacement) issued between January 1 and March 31, 2006. Of
the 275 SSNs selected for review, 252 (91.6 percent) were replacement card
transactions, and 23 (8.4 percent) were applications for original SSNs.

Our audit determined whether FO personnel complied with enumeration policies and
procedures 2 and SS-5 Assistant requirements when processing the 275 applications.
In doing so, we determined whether FO personnel (1) properly entered all the applicant
information in SS-5 Assistant; (2) documented required evidence of age, identity,
U.S. citizenship or lawful immigration status, as appropriate; (3) documented the
verification/authentication of evidentiary documents as required by SSA policy; and
(4) obtained supervisory approval of the SSN application, when required.

We verified document identification numbers recorded in the SS-5 Assistant evidence
fields with the issuing State or Federal agency. Specifically, we verified U.S. birth
certificate information with State Bureaus of Vital Statistics, immigration documents with
the Department of Homeland Security (DHS), passports with the Department of State,
and driver’s licenses with the issuing State Department of Motor Vehicles. Finally, we
considered possible enhancements to the enumeration process that may improve the
integrity of the SSN process. Further information regarding our scope and methodology
and sampling methodology and results are in Appendices B and C, respectively.

1
  SSA offers two programs that do not require SSN applicants to visit an SSA FO. The Enumeration at
Birth program offers parents an opportunity to request an SSN for their newborn as part of the birth
registration process. Additionally, the Enumeration at Entry process allows certain classes of immigrants
to apply for an SSN when completing immigration documents with the Departments of State and
Homeland Security. Because these SSN applications are processed outside of the SS-5 Assistant, we did
not include them in our audit.
2
 For SSN policies and procedures, see generally 42 U.S.C. § 405(c); 20 C.F.R. Part 422, Subpart B; and
Program Operations Management System (POMS) RM002: The Social Security Number, Policy and
General Procedures.
Page 3 – The Commissioner


RESULTS OF REVIEW

We are very encouraged with the SS-5 Assistant program and FO compliance with its
requirements. The system appears to have achieved its mission of increasing control
over the SSN application process, improving the quality of data used to assign an SSN
and enabling management to better control this workload. However, our review
disclosed some areas in which we believe the SS-5 Assistant (or the future SSNAP)
could ensure an even higher level of compliance with enumeration policies.
Additionally, we identified a policy we believe should be revised to ensure a greater
degree of integrity in the SSN assignment process.

In total, we identified 13 (4.7 percent) instances in which SSA FO personnel either did
not comply with Agency policies when processing an SSN application through the
SS-5 Assistant or made a technical error in entering the application information. Based
on these errors, we estimate that 157,786 SSN applications processed through the
SS-5 Assistant during the 3-month period of our review contained at least 1 compliance
or technical error.

We also noted 26 (9.5 percent) instances in which FO personnel accepted and
documented “secondary” evidence when processing replacement card applications. 3
Although there are limited instances in which secondary evidence may be acceptable,
we were unable to determine whether these conditions were met with the
26 applications identified. We understand the acceptance of some secondary evidence
may be unavoidable; however, we are concerned that 9.5 percent of SSN applicants
(almost 1 out of every 10) could not obtain more probative evidence (that is, a driver’s
license, State identification card or U.S. passport) within the 10 days allowed by SSA
policy.

We also noted two instances in which it appears the SSN applicant presented invalid
identity documents to obtain a replacement Social Security card. Finally, we noted that
seven SSN applicants presented U.S. Certificates of Naturalization as evidence they
had obtained U.S. citizenship. Although SSA verifies the authenticity of other
immigration documents through DHS processes, SSA does not require that FO
personnel do so with Certificates of Naturalization. We believe such authentication
would improve the integrity of SSA records and ensure only those with true
U.S. citizenship are afforded the benefits derived from this status.




3
 We did not report applications where secondary evidence was presented for minor applicants under 18,
but the parent or legal guardian presented primary evidence of their own identity.
Page 4 – The Commissioner


COMPLIANCE OR TECHNICAL ERRORS IN THE ASSIGNMENT OF ORIGINAL,
AND ISSUANCE OF REPLACEMENT, SSN CARDS

As outlined in Table 1, of the 275 randomly selected SSN transactions, 13 (4.7 percent)
either did not fully comply with SSA procedures or contained a technical error. Of these
13, FO personnel accepted and documented identity evidence that was insufficient in
4 instances. Additionally, FO personnel approved two SSN applications even though
the identity evidence provided contained some discrepancies with the applicants’
Numident 4 data. In the remaining seven SSN transactions, FO personnel made data
entry errors when processing the application through the SS-5 Assistant.

           Table 1: Compliance or Technical Errors Identified in Our Sample

                                                                                         Number of
                   Type of Compliance/Technical Errors
                                                                                        Occurrences
    Insufficient Evidence to Support Applicant’s Identity                                          4
    SSA’s Identity Data Differed from the Issuing Agency Data                                      2
    Data Entry Errors                                                                              7
    Total Number of Compliance Errors Identified                                                 13
    Total Sample Size                                                                           275
    Percentage of Sampled SSN Transactions
                                                                                                      4.7
    with a Compliance Error

Insufficient Evidence to Support Applicant’s Identity

Of the 275 SSN transactions reviewed, FO personnel did not require and/or document
acceptable evidence of the numberholder’s identity for 4 (1.5 percent) replacement card
applications. In two of the four transactions, the FO staff entered insufficient identity
evidence in the “other” evidence field in the SS-5 Assistant. 5 In the first case, the
evidence documented was a traffic citation, which is not an acceptable identity
document. In the second case, the information entered was indiscernible. In a third
transaction, FO personnel entered a brief explanation of why they were issuing the
replacement card rather than the evidence used to establish the applicant’s identity.

In the fourth exception, SSA FO personnel processed a replacement SSN card
application through the SS-5 Assistant for a prisoner who was still incarcerated without
documenting proper identity evidence. Although SSA FOs may process replacement
card applications for prisoners, certain requirements must be met. Specifically, the

4
  When SSA assigns an SSN to an individual, it creates a master record in its Numident file containing
relevant information about the numberholder. Such information includes, among other items, the
numberholder’s name, date of birth, place of birth, parents’ names, citizenship status and number, and
date of replacement Social Security cards issued. See 71 Federal Register (FR) 1796, 1815-1816
(January, 11, 2006).
5
  The New York Regional Office Center for Automation released version 1.9 of the SS-5 Assistant on
June 29, 2006. This version eliminated the “other” selection from the list of identity documents in the SS-5
Assistant.
Page 5 – The Commissioner


•     prisoner must be a U.S. citizen,

•     SSN action cannot result in any changes to the Numident record,

•     FO must have a written agreement with the prison, and

•     SSN application must be accompanied with a letter from an authorized prison official
      that certifies information has been extracted from the prisoner’s record that verifies
                               6
      the prisoner’s identity.

If no agreement exists, FOs must adhere to the normal evidentiary requirements to
process a replacement card. In this instance, the FO had no written agreement with the
prison, and the only evidence of identity submitted with the application was the
prisoner’s identification number. Accordingly, the FO’s issuance of this replacement
                                     7
card did not comply with SSA policy.

Information from Identity Documents Did Not Match SSA Records

For 2 (less than 1 percent) of the 275 SSN transactions reviewed, SSA FO personnel
documented identity evidence that was inconsistent with identifying information in SSA
records—specifically, SSA’s Numident file. The two SSN transactions involved
replacement card applications. In each of the instances, the SS-5 application data
documented a State-issued driver’s license or identification card as evidence
establishing the individual’s identity. We verified the driver’s license numbers and
identification data with the State of issuance and found that some of the identity
information was not consistent with the applicants’ existing Numident data. The dates
of birth were incorrect for the applicants. We believe such differences should have
been resolved before FO personnel approved the replacement card application.

Data Input Errors Occurred When Documenting Evidence Submitted

We identified 7 (2.5 percent) instances in our sample of 275 transactions in which FO
personnel likely made data input errors when processing 6 replacement SSN card
applications and 1 original SSN application. For example, we detected instances where
some numbers or characters that FO staff recorded for State-issued driver’s licenses
and identification cards did not match the issuing agency’s records. We also found
similar instances with birth certificate numbers and U.S. passport data. Based on the
entirety of the data, we concluded the submitted evidence was valid, but the FO
personnel made input errors when recording the information in the SS-5 Assistant.


6
    POMS RM 00206.076, Replacement Cards for Prisoners.
7
  Our July 2006 report on The Social Security Administration’s Program for Issuing Replacement Social
Security Cards to Prisoners made recommendations to strengthen controls over this process. We
continue to believe those corrective actions are warranted but will not make additional recommendations
in this report.
Page 6 – The Commissioner


AREAS WHERE PROCESSING CONTROLS COULD BE IMPROVED

Of the 275 transactions, we believe processing controls could have been improved to
better ensure the integrity and accuracy of 26 (9.5 percent). For seven transactions,
FO personnel documented a Certificate of Naturalization as evidence of
U.S. citizenship; however, the certificates were not verified with DHS. Also, SSA
processed 26 applications in which FO personnel documented only secondary evidence
                                      8
to establish the applicants' identity. Although personnel may have complied with SSA
policy in both areas, we are concerned that such procedures do not provide the
strongest mechanisms to ensure proper SSN assignment, the integrity of the
enumeration process and accurate SSA records.

Verification of Citizenship Documents

For 7 (2.5 percent) of 275 sampled SSN applications, SSA FO personnel documented a
Certificate of Naturalization as evidence of U.S. citizenship. However, MES evidence
fields indicated that FO personnel did not verify the authenticity of these documents
through DHS’ Systematic Alien Verification for Entitlements (SAVE) program for these
seven replacement SSN card applications. 9 According to the applicants’ Numident
records, on the date of the SSN applications, each applicant either (1) was classified as
a noncitizen or (2) had no citizenship status code on the record and a foreign place of
birth was indicated.

When FO staff process SSN applications involving a Certificate of Naturalization, the
SS-5 Assistant prompts the staff to select “Certificate of Naturalization” from a
                                                                                      10
drop-down menu and enter the document’s alien registration number (A-number).
SSA policy requires that FO staff visually inspect Certificates of Naturalization for
authenticity, but staff is not required to routinely verify the A-number in SAVE when




8
 The 26 SSNs processed with secondary evidence included the 7 Certificates of Naturalization also
discussed in this report section.
9
  DHS’ SAVE program is an intergovernmental information-sharing initiative designed to aid various
agencies in determining a noncitizen’s immigration status. SAVE includes an on-line and manual
verification process. If the immigration documents presented by an SSN applicant appear valid, SSA field
office personnel query the on-line SAVE program, Alien Status Verification Index (ASVI), to verify the
immigration and work status of noncitizens. If ASVI information is not available or the documents appear
invalid, field office personnel send Form G-845, Document Verification Request, with photocopies of the
applicant-provided documents, to DHS for manual verification.
10
   The A-number is the 9-digit number that is shown on the Permanent Resident Card (Form I-551,
formerly Form I-151 Alien Registration Receipt Card), the Employment Authorization Document (I-766 and
I-688B), and on certain other immigration documents and notices. For newly admitted immigrants, the A-
number is shown on the immigrant visa affixed to the foreign passport.
Page 7 – The Commissioner


the document appears authentic. 11 The SS-5 Assistant does, however, provide FO
personnel with the option to automatically verify the Certificate of Naturalization through
SAVE. If the verification is successful, a verification number is propagated to the SS-5
evidence field.

For the seven applicants, we found no evidence that the A-numbers were verified
through SAVE. We were able to verify all seven Certificates of Naturalization through
SAVE and confirm that the applicants were naturalized U.S. citizens. Although there
was no evidence of irregularities in these seven cases, our previous audits and
investigations have shown that visual inspection is not always a reliable method of
detecting counterfeit documents. Given the technological advances in document
reproduction, we are concerned that SSA policy does not require the verification of all
Certificates of Naturalization through SAVE.

A Certificate of Naturalization may establish an SSN applicant as a U.S. citizen in
SSA’s records, which could bestow certain privileges on the individual. For example,
the Employment Eligibility Verification System (EEVS), formerly known as the Basic
Pilot, is a DHS program supported by SSA, which provides employers a tool for
determining whether newly hired employees reported the correct name, SSN, and date
of birth and are authorized to work in the United States. If noncitizens are incorrectly
classified as U.S. citizens in SSA records (and allege U.S. citizenship to an employer),
EEVS would not require that DHS determine their immigration and work status before
confirming employment eligibility. A mandatory employment eligibility system has been
proposed in both House and Senate bills for all newly hired U.S. employees. If such
legislation is enacted, the accuracy and integrity of SSA’s records regarding the
numberholders’ citizenship status would be essential to ensuring correct employment
eligibility feedback to employers. As such, we believe an additional control requiring the
verification of Certificates of Naturalization will reduce the potential for the improper
assignment of SSNs. Also, since the SS-5 Assistant can automatically verify
Certificates of Naturalization through SAVE, we believe this additional control would
have minimal effect on FO workloads.

Reliance on Secondary Evidence

From our sample of 275 transactions, we identified 26 occurrences (9.5 percent) in
which SSA FO personnel processed replacement SSN card applications using only
secondary evidence. 12 Typical examples of secondary evidence used included
insurance cards, employee identification cards, Certificates of Naturalization, and
student identification cards. In comparison, acceptable primary evidence is a valid
U.S. State-issued driver’s license, a U.S. State-issued identification card, or a
U.S. Passport.


11
     POMS RM 00203.310 C 3.
12
   We did not report applications where secondary evidence was used for child applicants under 18, but
the parent or legal guardian presented primary evidence of their identity.
Page 8 – The Commissioner


When processing SSN applications, FO personnel are required to obtain
documentation with the highest probative value to establish identity—which includes
                            13
available primary evidence. According to SSA policy, “available” means the
document exists and the applicant can access or obtain it within 10 business days. 14
Further, lost or expired documents are also considered “available” if the SSA staff
processing the application know that the documents(s) can be renewed or replaced
within 10 business days. 15

We understand that certain circumstances allow SSN applications to be completed with
secondary evidence. However, we are concerned that almost 1 of every 10 SSN
transactions was processed using secondary identity evidence. Because SSA FO staff
deferred to secondary evidence when processing the transactions, we can only
conclude that none of the 26 applicants were able to produce a valid State driver’s
license, identification card or passport. We are wary of the frequency of this situation.

IDENTITY EVIDENCE WAS SUSPECT

Of the 275 sampled SSN transactions, the identity documents presented for 2 (less
than 1 percent) replacement SSN card applications were suspect. In these two cases,
FO personnel recorded a driver’s license number as the type of identity evidence
submitted. The driver’s license numbers did not verify with the issuing State’s
department of motor vehicles data. Additionally, officials for the issuing States
researched their databases by the SSN applicants’ names and could not identify a valid
license for either individual.

CONCLUSION AND RECOMMENDATIONS

We are pleased with the SS-5 Assistant program and FO compliance with its
requirements. Also, we recognize the New York Regional Office Center for
Automation’s efforts to continually improve the SS-5 Assistant. Our review determined
that the SS-5 Assistant is functioning as intended. Although we identified some minor
compliance and technical errors, we do not believe these instances are significant or
indicative of larger systemic problems. Given the success of the SS-5 Assistant, we
believe it—or the future SSNAP—could be enhanced to ensure an even higher level of
SSN integrity and further reduce the Agency’s risk of improper SSN assignment.




13
     POMS RM 00203.200 E 2d.
14
     Id.
15
     Id.
Page 9 – The Commissioner


Accordingly we recommend SSA:

1. Consider coordinating with DHS to implement a requirement that FO staff verify the
   authenticity of all Certificates of Naturalization through SAVE when processing SSN
   transactions.

2. Issue a reminder to FOs about the importance of properly establishing and
   documenting an applicant’s identity when processing an SSN transaction.

3. Issue a reminder to FOs that staff consider all viable options to obtain primary
   identity evidence before deciding to process SSN transactions based on secondary
   identity data.

AGENCY COMMENTS AND OIG RESPONSE
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.




                                                  Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
ASVI    Alien Status Verification Index
DHS     Department of Homeland Security
EEVS    Employment Eligibility Verification System
FO      Field Office
MES     Modernized Enumeration System
OIG     Office of the Inspector General
POMS    Program Operations Manual System
SAVE    Systematic Alien Verification for Entitlements
SSA     Social Security Administration
SSN     Social Security Number
SSNAP   Social Security Number Application Process
                                                                        Appendix B

Scope and Methodology
We reviewed a random sample of 275 Social Security number (SSN) applications
processed through the SS-5 Assistant that resulted in the assignment of an original
SSN or the issuance of a replacement Social Security card. We selected our sample
from a universe of 3,337,772 Social Security cards issued from January 1 through
March 31, 2006. Based on information we obtained from the Modernized Enumeration
System (MES), we determined whether the Social Security Administration (SSA)
documented the required applicant information prescribed by SSA’s enumeration
policy. Because we tested more than one control attribute for each SSN transaction,
some of the sampled SSN transactions may have more than one reportable issue and
are included as audit findings in more than one section of the report.

To accomplish our objectives we:

•   Reviewed applicable laws, regulations, policies and procedures.

•   Interviewed SSA personnel in New York Regional Office Center for Automation
    responsible for developing and servicing the SS-5 Assistant application.

•   Interviewed field office personnel to gain an understanding of the SSN transaction
    processes.

•   Examined SSA’s Numident for the sampled SSN transactions to determine whether
    the citizenship and evidence codes properly reflected the applicant’s status in
    accordance with the evidence descriptions documented in MES.

•   Obtained and reviewed MES data.

•   For SSN transactions in which the identity evidence descriptions provided alien
    registration numbers, we queried the Department of Homeland Security’s
    Systematic Alien Verification for Entitlement program to verify the noncitizen’s
    purported citizenship status.

•   For SSN transactions in which the identity evidence descriptions provided
    U.S. passports, we verified the passport information with the Department of State.

•   Obtained birth certificates from various State Bureaus’ of Vital Statistics and queried
    data from States’ Department of Motor Vehicles.

We conducted field work from August 2006 through April 2007 at SSA’s Regional Office
in Atlanta, Georgia. During our review, we relied on data extracted from SSA’s MES
and the Numident. We determined the data were sufficiently reliable to satisfy our audit


                                            B-1
objectives. Our tests of internal controls were limited to gaining an understanding of the
laws, regulations and polices that govern the assignment and issuance of original and
replacement SSNs cards and performing the tests identified above. The SSA entity
audited was the Office of the Deputy Commissioner for Operations. We conducted our
audit in accordance with generally accepted government auditing standards.




                                           B-2
                                                                   Appendix C

Sampling Methodology and Results
Sampling Methodology

We reviewed a random sample of 275 Social Security number (SSN) applications
processed through the SS-5 Assistant that resulted in the assignment of an original
SSN or the issuance of a replacement Social Security card. We selected our sample
from a universe of 3,337,772 SSN cards issued from January 1 through March 31,
2006. Our audit tested more than one control attribute for each SSN transaction.

We made all projections at the 90-percent confidence level.

Results – Original SSNs and Replacement SSN Cards with at Least One
Compliance Error

                      Original SSNs and Replacement SSN Cards

                          With At Least One Compliance Error
                             Attribute Appraisal Projections
                                                                          SSN
 Population and Sample Data
                                                                      Transactions
 Total Population                                                           3,337,772
 Sample Size                                                                     275
 SSN Transactions Processed with a Compliance Error                               13

 Projection to Population                                              Projections
 Lower Limit                                                                  94,078
 Point Estimate                                                              157,786
 Upper Limit                                                                 247,355
                  Appendix D

Agency Comments
                                 SOCIAL SECURITY

MEMORANDUM


Date:      June 20, 2007                                                Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Field Office Use of the SS-5
           Assistant" (A-04-07-17026)--INFORMATION


We appreciate OIG’s efforts in conducting this review. Our comments on the draft report’s
content and recommendations are attached.

Please let me know if we can be of further assistance. Staff inquiries may be directed to
Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at 410 965-4636.

Attachment:
SSA Response




                                                D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FIELD OFFICE USE OF THE SS-5 ASSISTANT" (A-04-07-17026)


Thank you for the opportunity to review and comment on the draft report. We are pleased that
OIG concluded that the SS-5 Assistant is effective in ensuring the accuracy of the Social
Security number (SSN) assignment process. We are also pleased that OIG did not find any fraud
in this audit related to the Social Security Administration’s (SSA) acceptance of Certificates of
Naturalization as proof of citizenship. We appreciate OIG’s willingness to incorporate the
comments made at the exit conference into the formal draft. Below are our responses to the
specific recommendations and some technical comments.

Recommendation 1

The Social Security Administration (SSA) should consider coordinating with the Department of
Homeland Security (DHS) to implement a requirement that Field Office (FO) staff verify the
authenticity of all Certificates of Naturalization through Systematic Alien Verification of
Entitlement (SAVE) system when processing SSN transactions.

Response

We will consider this; however, there are a number of technical and budgetary issues that need to
be evaluated to determine if implementation of this recommendation is feasible and desirable.
Our review of the current Memorandum of Understanding (MOU) with DHS does not require
that they verify Certificates of Naturalization. Prior to pursuing this, we would need a
commitment from DHS to ensure that it could handle the additional SSA verification workload.
One important operational issue to be addressed is to determine whether the alien registration
number, known as the “A number,” appears on all Certificates of Naturalization. If it does, the
verifications could be performed electronically; if it does not, a manual verification process
would be necessary which would create an additional operational workload for SSA. We will
complete our analysis of the feasibility of this recommendation by September 30, 2007.

Recommendation 2

SSA should issue a reminder to FOs about the importance of properly establishing and
documenting an applicant’s identity when processing an SSN transaction.

Response

We agree. We will issue a reminder on this subject by the end of June 2007.

Recommendation 3

SSA should issue a reminder to FOs that staff consider all viable options to obtain primary
identity evidence before deciding to process SSN transactions based on secondary identity data.


                                               D-2
Response

We agree. The SS-5 Assistant now requires that primary evidence be shown as unavailable
before allowing FO employees to select a lower level document. This new process ensures that
employees consider all viable options to obtain primary evidence of identity before processing
SSN transactions based on lower level documents. We will issue a reminder to FO employees on
this subject by the end of June 2007.




                                             D-3
                                                                      Appendix E


OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly Byrd, Director, Southern Audit Division, (205) 801-1650


   Frank Nagy, Audit Manager, (404) 562-5552


Acknowledgments

In addition to those named above:


   Phillip Krieger, Auditor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-07-17026.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
